 Office of Inspector General
 Audit Report

                Superfund




Environmental Data Quality at
 Superfund Removal Actions
        in Region 9
            E1SFF7-09-0058-8100223
               September 4, 1998




       Tucson International Airport PCB Removal
Inspector General Division   Western Audit Division
 Conducting the Audit:       Sacramento Branch Office

Region Covered:              Region 9
                             San Francisco, California

Divisions Involved:          Superfund Division
                             Policy and Management Division

Cover Photo:                 Tucson International Airport PCB Removal
                             Tucson, Arizona
                             Photograph by Dan Cox, EPA OIG
                                               September 4, 1998

MEMORANDUM

SUBJECT:       Report on Environmental Data Quality at Superfund Removal Actions
               in Region 9
               Audit Report No. E1SFF7-09-0058-8100223

FROM:          Truman R. Beeler
               Divisional Inspector General for Audit
               Western Division

TO:            Felicia Marcus
               Regional Administrator
               Region 9

Attached is our final report on Environmental Data Quality at Superfund Removal Actions in
Region 9. The purpose of the audit was to determine if Region 9 had sufficient procedures in
place to ensure that environmental data was of known and acceptable quality for Superfund
removal actions.

Our audit of five removal actions showed Region 9 did not have sufficient procedures over
Superfund removal actions to ensure that environmental data was of known and acceptable
quality. Also, the Region did not fully use EPA’s scientific planning process, called data quality
objectives, to ensure its removal actions and corresponding data collection activities were
effective and efficient.

This audit is also part of a national audit of field sampling. Accordingly, the results of this audit
will also be included in a national audit report, to be issued in 1998.

This audit report contains findings that describe problems the Office of Inspector General has
identified and corrective actions the OIG recommends. This audit report represents the opinion of
the OIG and the findings contained in this audit report do not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings
described in this report are not binding upon EPA in any enforcement proceeding brought by EPA
or the Department of Justice.
ACTION REQUIRED

In accordance with EPA Order 2750, you, as the Action Official, are required to provide us with a
written response to this report within 90 days of the report date. For corrective actions planned
but not completed by the response date, we need specific milestone dates to decide whether to
close this report.

We have no objection to the further release of this report to the public.

If you have any questions, please contact Charles McCollum, Audit Manager, at (916) 498-6530,
or Katherine Thompson, Auditor in Charge, at (916) 498-6535.

Attachment

Distribution: Appendix G
                   Table of Contents

                                                                                                   Page

Executive
Summary     .................................................. i


CHAPTER 1   Quality System for Removal Actions Needs Improvement . . 1
                 Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                 Quality Management Plan Needed . . . . . . . . . . . . . . . . . . . . 3
                 Data Quality Objectives Not Used to Design QAPPs . . . . . . 5
                 Critical Quality Assurance Activities Not Specified . . . . . . . 5
                 Plans for Collecting Data Not Optimized . . . . . . . . . . . . . . . 9
                 QAPPs Not Reviewed by Quality Assurance Office . . . . . . 10
                 Plans Not Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                 Region 9 Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


CHAPTER 2   Data Quality Objectives Could Improve Removal Planning
            and Data Collection . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                 Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                 Removal Actions Need Better Planning . . . . . . . . . . . . . . . 18
                 Causes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                 Best Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                 Region 9 Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


CHAPTER 3   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                 Emergency Response Program . . . . . . . . . . . . . . . . . . . . . . 25
                 Audit Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                 Significance of Environmental Data . . . . . . . . . . . . . . . . . . 27
                 Audit Scope and Methodology . . . . . . . . . . . . . . . . . . . . . 28
                 Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32




APPENDICES   A Region 9 Response to Draft Report . . . . . . . . . . . . . . . . . 33
             B Removal Actions Audited . . . . . . . . . . . . . . . . . . . . . . . . . 43
             C Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
             D Laws, Regulations, Directives, and Guidance . . . . . . . . . . 51
             E Definitions of Quality Assurance Activities . . . . . . . . . . . . . 53
             F Hanford’s Best Practice for Data Quality Objectives . . . . . 55
             G Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
               EXECUTIVE SUMMARY


INTRODUCTION   EPA’s Emergency Response Program responds to threats posed by
               the sudden or unexpected releases of hazardous substances.
               Region 9's Emergency Response Office manages the majority of
               these responses, called removal actions, throughout California,
               Nevada, Arizona, Hawaii, and the Pacific Islands.

               We performed this audit because of known risks to the quality of
               environmental data. Region 9's Superfund Program has
               experienced serious problems with environmental data quality that
               are likely to continue. Risks to environmental data are significant
               because data is the basis for EPA’s decision making and
               enforcement actions.

               This audit is also part of a national audit of field sampling. The
               results of this audit pertaining to field sampling will be included in a
               national audit report.


OBJECTIVE      The objective of the audit was to determine if Region 9 had
               sufficient procedures in place to ensure that environmental data was
               of known and acceptable quality for Superfund removal actions.


RESULTS IN     Our audit of five removal actions
               showed Region 9 did not have sufficient          Actions Audited
BRIEF
               procedures over Superfund removal               • Casmalia
               actions to ensure that environmental            • Cruz Ranch
               data was of known and acceptable                • Dodson Brothers
               quality. Also, the Region did not fully         • Sanders Aviation
               use EPA’s planning process, called data         • Tucson Airport
               quality objectives, to ensure its removal
               actions and corresponding data
               collection activities were effective and efficient.




                                  i
Chapter 1: Quality   Our audit of five removal actions showed the Region did not have a
System for           quality management plan which adequately documented and
Removal Actions      described the quality system for removal actions. Further, most of
Needs                the site-specific quality assurance project plans (QAPPs) we
Improvement          reviewed:

                     •   Were not based on the seven-step data quality objectives
                         (DQO) process;

                     •   Were not designed to prevent and detect inappropriate quality
                         data;

                     •   Did not include defensible or optimal plans for collecting data;

                     •   Were not reviewed or approved by the Region’s Quality
                         Assurance Office; and,

                     •   Were not implemented or monitored.

                     We believe the main reason the quality system was insufficient was
                     because decision makers did not perceive data quality as a risk to
                     decision making.

                     Consequently, the Region completed three removal actions without
                     appropriate quality data for decision making. In addition, about
                     420 samples were analyzed for one removal action that were not
                     used for the decision indicated in the sampling plan.

Chapter 2: Data      The Region undertook removal actions and corresponding data
Quality Objectives   collection efforts without fully using the data quality objectives
Could Improve        process, EPA’s systematic planning method.
Removal Planning
and Data             The DQO process provides two primary benefits: (1) better
Collection           decisions, because they are based on the scientific method; and (2)
                     more cost-effective sampling for environmental data.

                     The Region did not use the
                     complete DQO process at         “Data cannot be evaluated as
                     the five removal actions we     good or not good until the use of
                     audited because on-scene        that data has been clearly
                     coordinators were not           defined.”
                     required to and they were             -Principles of Environmental
                     generally unfamiliar with         Sampling, Second Edition, 1996
                     the process. Also, the
                     Region did not have a
                     system in place to support the process.

                                        ii
                   As a result, the Region completed five removal actions, costing
                   more than $20 million, without sufficiently documenting important
                   decision criteria or alternatives.

                   The five Superfund removal actions we audited are described in
                   more detail in Appendix B. Appendix C explains the abbreviations
                   we used. Appendix D lists the criteria applicable to data quality
                   and removal actions.


POSITIVE ACTIONS   Although we found deficiencies in the quality assurance system for
TAKEN              removal actions, we noted that:

                   •   The Region had a quality management plan that was approved
                       by EPA’s headquarters;

                   •   The Region’s quality management plan required QAPPs to be
                       approved by its Quality Assurance Office;

                   •   The Region’s Emergency Response Office had established a
                       “generic” QAPP that provided quality assurance guidance for
                       its removal actions;

                   •   The Emergency Response Office’s technical contractor had a
                       quality management plan that required significant quality
                       assurance activities;

                   •   The Emergency Response Office and Superfund Cleanup
                       Branch had prepared site-specific QAPPs for all the removal
                       actions we audited; and,

                   •   All of the site-specific QAPPs we reviewed required the data to
                       be validated, an important quality assurance activity.


RECOMMENDATIONS    In summary, we recommend that the Regional Administrator:

                   •   Develop a quality management plan for removal actions that
                       includes: (1) responsibilities for quality assurance functions; (2)
                       training requirements; and (3) a selection basis and tracking
                       system for environmental laboratories.

                   •   Require the regional Quality Assurance Office to monitor
                       compliance with quality management plans, including plans for

                                     iii
               the Emergency Response Office and its technical contractor.

           •   Amend the on-scene coordinators’ responsibilities for QAPPs to
               include the development of DQOs and consideration of critical
               quality assurance activities. Also, ensure responsibilities include
               QAPP approval, implementation, and monitoring.

           •   Require the Quality Assurance Office to review and approve all
               QAPPs, including providing verbal approval at emergency
               actions, if necessary.

           •   Require on-scene coordinators to develop DQOs for all removal
               actions.

           •   Establish a minimum, mandatory training requirement for DQOs
               for regional personnel whose duties involve the collection,
               evaluation, or use of environmental data.

           •   Adopt a team approach to developing DQOs using facilitators,
               on-scene coordinators, quality assurance experts, statisticians,
               and technical experts.


REGION 9   A draft report was provided to the Region on April 23, 1998, and
COMMENTS   the Region provided us its draft comments on July 24, 1998. We
           held an exit conference with regional officials on August 12, 1998
           and the Region provided us its final comments on August 21, 1998.

           In its final comments, the Region said it:

               ...is committed to early implementation of the audit
               recommendations and intends to complete substantially all
               major milestones in the recommendations before the end of the
               calendar year.

           The Region agreed to develop a quality management plan to
           address data quality at removal actions. The quality management
           plan will provide for:

           •   A graded approach to quality assurance;

           •   Development of generic quality assurance project plans;

           •   Approval of quality assurance project plans by the Quality
               Assurance Office; and,


                             iv
•   Oversight of the implementation of the quality management plan
    by the Quality Assurance Office.

Also, the Region will initiate a training program to assure that all
on-scene coordinators receive appropriate training on data quality
objectives. The Region believed that these actions, together with
other ongoing efforts, should greatly enhance the management of
data quality at removal actions.

The Region said although it still had “some disagreements with
specific conclusions, we do not believe that these disagreements
detract from the overall message regarding the need to improve
data quality.” The Region also said that it “firmly believes that
the five removal actions considered in preparation of the report
were appropriate and protective of human health.”

The Region’s response to the audit report recommendations are
summarized in Chapters 1 and 2 of our report. The Region’s entire
response is at Appendix A.




                  v
(This page intentionally left blank.)




                 vi
                         CHAPTER 1
             Quality System for Removal Actions
                     Needs Improvement

                 Our audit of five removal
                 actions showed the Region did         Quality System Weaknesses
                 not have a quality management        • No quality management plan
                 plan which adequately                   for removal actions.
                 documented and described the         • DQOs not used to design
                 quality system for removal              quality assurance project plans.
                 actions. Further, most of the        • Critical quality assurance
                 site-specific quality assurance         activities excluded from plans.
                 project plans (QAPPs) we             • Plans for collecting data not
                 reviewed:                               optimized.
                                                      • Plans not reviewed by Quality
                 •   Were not based on the               Assurance Office.
                     seven-step data quality          • Plans not implemented.
                     objectives process;

                 •   Were not designed to prevent and detect inappropriate quality data;

                 •   Did not include defensible or optimal plans for collecting data;

                 •   Were not reviewed or approved by the Region’s Quality Assurance
                     Office; and,

                 •   Were not implemented or monitored.

                 We believe the main reason the quality management plan and QAPPs were
                 insufficient was because regional decision makers did not perceive data
                 quality as a risk to decision making.

                 Consequently, the Region completed three removal actions without
                 appropriate quality data for decision making. In addition, about 420
                 samples were analyzed for one removal action that were not used for the
                 decision indicated in the sampling plan.


BACKGROUND       According to the American national standard, Specifications and
                 Guidelines for Quality Systems for Environmental Data Collection and
                 Environmental Technology Programs, ANSI/ASQC E4-1994, a tiered
                 quality system is recommended that:


                                       1
                       1. Describes the entire organization-         Two-Tiered Quality
                       wide quality system in a quality                    System
                       management plan, and                         • Quality Management
                                                                      Plan
                       2. Is supported by QAPPs describing          • Quality Assurance
                       the applicability of the quality system        Project Plans
                       to specific actions.

                    EPA’s quality system is prescribed in
                    Policy and Program Requirements for the Mandatory Agency-Wide
                    Quality System, EPA Order 5360.1, change 1. The order calls for
                    establishing quality systems that fully comply with the American national
                    standard.

Quality             A quality management plan should include: (1) responsibilities for
Management Plan     management and staff; (2) personnel qualifications and training; and (3)
                    documentation procedures. It should also describe when and how controls
                    will be applied to specific projects. EPA Headquarter’s Superfund
                    Program has a quality management plan and each region is required to
                    develop a quality management plan.

Quality Assurance   The American national
                    standard also requires all work      “The QAPP is an important part of
Project Plan
                    involving the generation and         the EPA Quality System, and is
                    use of environmental data to         required for all data collection
                    be planned and documented.           activities that generate data for use
                    Typically, this documentation        by EPA.”
                                                             -EPA’s DQO Guidance, EPA QA/G-4
                    is a project-specific QAPP.
                    Also required by the National
                    Contingency Plan, a QAPP
                    defines in detail how specific quality assurance and quality control activities
                    will be applied to a project.

                    Both the American national standard and EPA’s guidance, QA/G-5,
                    provide requirements and suggestions for preparing QAPPs.

Regional Quality    Region 9 had a quality management plan. Further, the Region’s
System              Emergency Response Office used two types of QAPPs:

                    1. “Generic” plans that provided guidance for most removal actions.

                    2. Site-specific plans (sometimes called quality assurance sampling plans)
                    that were required for each removal action.

                    The Region’s Quality Assurance Office was responsible for:

                                           2
                    •   Reviewing and approving quality assurance documents;

                    •   Conducting audits of environmental data collection activities; and,

                    •   Implementing Agency QA policies.

                    Chapter 3 provides more information on the Region’s organizational
                    structure.


QUALITY             Although the Region had a quality management plan, generic QAPPs, and
MANAGEMENT          a contractor quality management plan, collectively these plans did not
PLAN NEEDED         adequately document and describe how quality controls were applied to
                    removal actions. According to the American national standard,
                    ANSI/ASQC E4-1994:

                        A quality system shall be planned, established, documented,
                        implemented, and assessed as an integral part of a management
                        system for ... implementing ... environmental programs ...

                    The data quality system suffered because regional decision makers did not
                    believe that data quality posed a significant risk to removal actions. We
                    believe this lack of concern about data quality contributed to systemic
                    weaknesses in the quality system for removal actions. Further, the Region
                    had not required its programs to document their quality systems in quality
                    management plans.

Region’s Plan Did   Although Region 9 had a quality
                                                               “The quality system shall be
Not Address         management plan, it did not describe a
                                                               described in a quality
Removal Actions     quality system for removal actions in
                                                               management plan
                    sufficient detail. For example, it did
                                                               document(s) or quality
                    not include:
                                                               manual(s) that has been
                                                               reviewed and approved for
                    •   Management and staff
                                                               implementation....”
                        responsibilities for quality
                        assurance functions, such as
                                                                - American National Standard,
                        developing DQOs and monitoring                   ANSI/ASQC E4-1994
                        compliance with QAPPs;

                    •   Minimum training requirements
                        for quality assurance;

                    •   A selection basis for environmental laboratories, such as laboratory
                        audits and performance evaluation samples; and,


                                          3
                  •   A tracking system for monitoring laboratory performance.

                  Further, the Region’s quality management plan excluded important quality
                  controls included in the Superfund Program’s quality management plan.

Generic QAPPs     Although the Emergency Response Office and its technical contractor had
Insufficient      generic QAPPs that set some quality assurance guidelines, these QAPPs
                  were not substitutes for quality management plans for two reasons:

                  1. They did not include many of the fundamental aspects of a quality
                     management system, such as responsibilities for quality assurance; and,

                  2. They did not prescribe a system to control laboratory data quality that
                     included laboratory audits or successful analysis of performance
                     evaluation samples.

                  Also, these generic QAPPs did not apply to some types of removal actions.
                  For example, the Emergency Response Office’s generic QAPP did not
                  apply to removal actions taken by the Superfund Cleanup Branch, which
                  handled some removal actions.

Contractor’s      The Emergency Response Office’s technical contractor had a quality
Quality           management plan but it was insufficient. The Emergency Response Office
Management Plan   used a technical contractor for much of its environmental sampling.
Not Fully         However, the contractor’s quality management plan was not effective for
Implemented       several reasons:

                  1. The contractor’s plan applied only to certain removal actions that were
                  delegated to the technical contractor.

                  2. The plan was not fully            “Laboratory system audits will be
                  implemented. For example, we         performed on subcontract
                  found that the contractor had not    laboratories.”
                  performed laboratory audits, an
                  important aspect of its quality             -Technical Contractor’s Quality
                  assurance system, although                               Management Plan
                  required by its plan.

                  3. The Region was not checking compliance with the plan. Both the
                  contract and Region’s quality management plan required quality assurance
                  program audits of the contractor. However, none had been done since the
                  contract became effective in December 1995.

Lack of Plan      The lack of an effective, implemented quality management plan caused
Causes Problems   many of the problems we found with the quality system.


                                        4
                    For example, on-scene coordinators lacked extensive training in quality
                    assurance. One of the reasons was that the quality management plan did
                    not specify quality assurance training requirements for on-scene
                    coordinators. Training requirements should be established to ensure on-
                    scene coordinators are qualified to review, approve, and monitor
                    implementation of QAPPs.

                    The lack of a quality management plan contributed to other problems, such
                    as QAPPs that were absent important quality assurance activities. The
                    following sections explain the adverse impacts caused by ineffective
                    QAPPs.


DATA QUALITY        Our audit of five removal actions found the seven-step data quality
OBJECTIVES NOT      objectives process was not used to design QAPPs. As discussed in
USED TO DESIGN      Chapter 2, on-scene coordinators were not required to develop DQOs.
QAPPS
                    Setting a data quality objective is the first step in developing an effective
                    QAPP and is critical for effective and efficient data collection efforts.
                    DQOs are needed to determine the type, quantity, location, and quality of
                    sampling necessary for decision-making.


CRITICAL            QAPPs were not effective in detecting inappropriate quality data because
QUALITY             they did not include:
ASSURANCE
ACTIVITIES NOT      •   Two or more important quality assurance activities;
SPECIFIED
                    •   Reporting and assessment criteria for validated or verified data;

                    •   A basis for selecting laboratories; or,

                    •   Approval by on-scene coordinators, in two instances.

                    As a result, data was not of known or appropriate quality for decision
                    making. Further, tainted data was used to evaluate a possible source of
                    contamination at one removal action.

Important Quality   Although the QAPPs we audited required data validation, an important
Assurance           quality assurance activity, only two included a specification for another
Activities          important quality assurance activity:




                                           5
                                     Requirement Included in QAPP
                                                                   Performance      Magnetic
                                             Data        Field      Evaluation       Tape
                         QAPP              Validation   Audits       Samples         Audits

                  Casmalia                     Ž

                  Cruz Ranch                   Ž

                  Dodson Brothers              Ž          Ž

                  Sanders Aviation             Ž

                  Tucson Airport               Ž                        Ž


                 The American national standard, ANSI/ASQC E4-1994, necessitates
                 consideration of these activities. According to the American national
                 standard, the design process for data collection must consider these
                 activities and develop detailed specifications for them. Also, prior OIG
                 audits have found that a combination of quality assurance activities is
                 needed for an effective design because one activity alone, such as data
                 validation, cannot find many of the known quality problems. Appendix E
                 further explains how these activities can improve data quality.

                 Along with data validation, field audits and performance evaluation
                 samples should be required when data of higher quality is needed for
                 important decisions, such as deciding if a removal action is complete.
                 Magnetic tape audits should be performed if major deficiencies are found
                 by other methods. For tapes to be available for audit, EPA should include
                 a requirement for magnetic data availability for appropriate analytes in
                 QAPPs and corresponding contracts.

Data Reporting   Although data validation was required, QAPPs did not include data
and Assessment   reporting requirements and criteria
                 for assessing validated or verified         Missing Reporting
Requirements
                                                                Requirements
                 data. They also did not include
                 reporting or assessment criteria for  • No procedures for reporting
                 other types of quality assurance         the results of validated data
                 activities, such as performance          to on-scene coordinators.
                 evaluation samples. As a result,
                 decisions at the Cruz Ranch and       • Lack of reporting
                 Dodson Brothers sites were not           requirements for
                 based on appropriate quality data.       performance evaluation and
                                                          split samples.
Criteria for     At the Cruz Ranch site, the QAPP
                                                        •     No criteria for determining if
Correlating      did not specify criteria for
                                                              data needed to be rejected.
Laboratory and   determining that screening data was
Field Data Not   sufficient for verifying contamination
Established

                                       6
               was removed. To ensure contamination was removed, the QAPP called for:

               •   Screening data taken by field measurements to determine that metal
                   contaminated soil was removed; and,

               •   Ten percent of the screening samples to be analyzed by a laboratory
                   and validated.

               However, the QAPP did not establish criteria for determining if the
               laboratory’s analytical data sufficiently correlated with the field screening
               data. As a result, no action was taken when EPA’s technical contractor
               found that insufficient samples were taken to correlate the field screening
               data with the laboratory’s analytical data. Thus, the Region concluded that
               the contamination was removed although it lacked appropriate quality data
               for such a decision.

Serious Data   At the Dodson Brothers site, EPA’s technical contractor found serious
Problems Not   problems with the data. However, these problems were not reported to
Reported       EPA.




                               Dodson Brothers Site, Montclair, California

               Data collected to identify an alleged waste pit was tainted. The removal
               action included an objective to identify the location of an alleged waste pit.
               During a week of soil-gas sampling to identify the pit, the doors to a
               mobile testing laboratory were left open, allowing diesel exhaust to enter
               the laboratory and contaminate sample analysis equipment. Therefore, the
               data was tainted.


                                     7
                     Because reporting procedures were deficient, the on-scene coordinator was
                     not aware that the data was tainted. A few days after sampling was
                     completed, the contractor identified data problems in a data review report.
                     However, the QAPP did not require the contractor to promptly provide
                     this report to the on-scene coordinator. As a result, the on-scene
                     coordinator was unaware of the data problem. Consequently, the Region’s
                     decision that the alleged waste pit did not exist was not based on
                     appropriate quality data.

Laboratory           As noted in our discussion of quality management plans, the Region’s
Selection Not        quality management plan and generic QAPPs did not address the basis for
Addressed            selecting environmental laboratories. Further, except for Dodson Brothers
                     site, none of the QAPPs for the sites we audited included the basis for
                     selecting laboratories. Without a laboratory evaluation technique, such as
                     audits or performance evaluation samples, the quality of data produced by
                     a laboratory is unknown.

Audits               Audits are necessary to ensure laboratories are technically qualified, and to
                     identify and prevent data problems. Laboratory audits are designed to
                     identify technical areas which may cause laboratories to improperly identify
                     and quantitate chemicals. To prevent problems, an on-site audit should be
                     done before any samples are analyzed.

Performance          Performance evaluation samples are another time-tested method to
Evaluation Samples   evaluate a laboratory’s ability to analyze a specific sample. EPA uses
                     performance evaluation samples extensively in its contract laboratory
                     program to evaluate laboratory performance.

Coordinator          We could not substantiate that on-scene coordinators approved QAPPs at
Approvals Missing    two of the removal actions we audited: Casmalia and Cruz Ranch. As a
                     result, it was unclear if these on-scene coordinators agreed the QAPPs
                     should have been implemented.

                     Evidence of approvals were missing because the Emergency Response
                     Office felt it was unnecessary for on-scene coordinators to indicate
                     approval of QAPPs by their signature.

                     QAPPs should be approved by on-scene coordinators for several reasons.
                     First, written approvals document that coordinators agree that QAPP
                     provisions are adequate. Second, a signed and dated QAPP provides field
                     and laboratory personnel assurance that they are using an approved, up-to-
                     date QAPP. Third, both the National Contingency Plan and EPA Order
                     5360.1 require EPA approval of QAPPs.




                                           8
PLANS FOR          Three of the five sites we audited had plans for collecting data that were
COLLECTING         not optimal or defensible. As a result, samples were analyzed at one site
DATA NOT           that were not used for the decision indicated in the sampling plan. Also,
OPTIMIZED          sample designs did not support defensible decision making at two other
                   sites.

                   Sampling plans document the design for collecting samples and explain the
                   basis for the design. These plans, components of QAPPs, provide specific
                   details about the type, quantity, and location of samples to be analyzed
                   during a removal action. The rationale for taking the samples should be
                   included so that decisions are defensible and appropriately documented.

Samples Not Used   The Region did not use the data from about 420 effluent samples at the
for Intended       Casmalia site for the decision indicated in the sampling plan. As part of its
Purpose            removal action, the Region installed a treatment system for groundwater
                   contaminated by a pesticides and solvents landfill.




                                   Treatment System, Casmalia Resources

                   Although the system effluent was sampled periodically, sample data was
                   not used for the decision described in the sampling plan: determination of
                   the suitability of the leachate for discharge. Although the first 16 samples
                   were used to determine if the leachate should be discharged, we estimate
                   the Region analyzed about another 420 samples over the four years that
                   were not used for this decision. The Region could not provide us with the
                   cost of the sampling.



                                         9
Sampling Plans   Sampling plans did not ensure that data needed for defensible decision-
Not Defensible   making was collected. We found:

                 •   The sampling plan for the Dodson Brothers removal action was
                     incomplete for drawing conclusions about an alleged waste pit as a
                     source of contamination.

                 •   The sampling plan for the Sanders Aviation removal action was
                     incomplete for drawing a conclusion on the remaining risks from DDT
                     or its residues.

                 In both of these cases, we believe both use of the DQO process and
                 approval of plans by the Quality Assurance Office would have likely
                 eliminated sampling design problems.


QAPPS NOT        One of the reasons that QAPPs       Reasons for Quality Assurance
REVIEWED BY      had design deficiencies was         Review and Approval of QAPPs
QUALITY          because the Region’s Quality       • Regional quality management plan
ASSURANCE        Assurance Office did not review       requires the Quality Assurance
OFFICE           or approve them. Except for the       Office’s review and approval.
                 Sanders Aviation QAPP, none of     • Regional experts should be included
                 the project specific QAPPs we         in all quality assurance planning.
                 audited were reviewed or           • Early Quality Assurance Office
                 approved by the Quality               involvement would expedite the
                 Assurance Office.                     QAPP review process.
                 On-scene coordinators are
                 responsible for approving QAPPs. As part of this process, coordinators
                 should submit QAPPs to the Region’s Quality Assurance Office. This
                 office is responsible for reviewing quality assurance documents and has
                 expertise in chemistry, quality assurance, and sample design.

                 On-scene coordinators told us they did not submit QAPPs to the Quality
                 Assurance Office for review and approval because:

                 •   Removal actions were done quickly and coordinators could not afford
                     the two or three weeks the Quality Assurance Office needed to review
                     and approve QAPPs; and,

                 •   The Quality Assurance Office’s suggested changes did not “add any
                     value” to QAPPs.

                 On-scene coordinators and the Quality Assurance Office need to develop a
                 time-sensitive, team approach to combine their expertise to develop


                                      10
                    defensible designs for collecting data. These designs are manifested in
                    QAPPs.

Perceived Lack of   On-scene coordinators perceived that they did not have enough time for
Time                the Quality Assurance Office to review and approve their QAPPs. The
                    main reason cited was that the “time critical” nature of removal actions did
                    not allow time for normal reviews and approvals.

                    We found that half of the            Months Taken to Complete 30 Removals
                                                                October 1, 1995 to March 31, 1997
                    Region’s removal actions in
                    process between October 1,             Over 12
                                                                                               0 to 1
                                                                                               Month
                    1995 and March 31, 1997 took           Months
                    more than six months to                                          27%
                                                                     40%
                    complete. The five removal
                    actions audited took an average
                                                                                    23%
                    of 26 months to complete.
                                                                           10%
                    These times ranged from               7 to 12                               2 to 6
                                                          Months                                Months
                    1 month to more than 4 years.

                    Thus, we believe it is reasonable
                    to allow the Quality Assurance Office time to review QAPPs. For some
                    extremely short duration removal actions, an expedited procedure may be
                    necessary to obtain the approval of the Quality Assurance Office.

Perceived Lack of   On-scene coordinators told us the Quality Assurance Office did not
Value Added         significantly improve QAPPs, considering the time investment. However,
                    we found that Quality Assurance Office reviews did identify significant
                    weaknesses in QAPPs. For example, the Quality Assurance Office found
                    that the QAPP for the Sanders Aviation removal action did not include a
                    cleanup level for DDT. The Region should develop an expedited QAPP
                    review process that identifies and resolves significant data quality issues.


PLANS NOT           Although one or more effective quality assurance activities were included
IMPLEMENTED         in QAPPs, often they were not performed. This was the case with three of
                    the five sites we audited:




                                          11
                                    QAPP Requirements Not Implemented
                         Removal         Data                Field   Laboratory       PE
                          Action       Validation            Audit     Audit        Sample
                        Dodson               Ž                Ž          Ž              1
                        Brothers
                        Sanders              Ž                 1         1              1
                        Aviation

                        Tucson              Ž                  1         1              Ž
                        Airport
                    1- Not included as a QAPP requirement.

Coordinators Did    One of the main reasons QAPPs were not implemented was because on-
Not Monitor         scene coordinators did not monitor QAPPs and, consequently, were not
QAPPs               aware that QA activities were not performed. As noted previously, the
                    Region did not have a quality management plan that identified on-scene
                    coordinator responsibilities for data quality, such as monitoring QAPP
                    implementation. These responsibilities need to be identified and carried
                    out.

Adverse Impacts     For two of the removal actions audited, we concluded that:

                    •     A decision at the Sanders Aviation removal action was not based on
                          appropriate quality data and,

                    •     One objective of the Dodson Brothers removal action was not
                          achieved.

Insufficient Data   Data generated for the Sanders Aviation site at a mobile laboratory was not
                    validated. Therefore, the data was not of appropriate quality for
                    determining the cleanup was complete. This removal action cost about
                    $2.8 million.

                    Contrary to the requirements of its
                    QAPP, the Region used test results       “Ten percent of the samples must
                    from a mobile laboratory to confirm be confirmed with QA Definitive
                    that toxaphene was cleaned up. The data.”
                    sampling plan required the regional                  -Sanders Aviation QAPP
                    laboratory to analyze 10 percent of
                    the final samples and the results be validated. However, the results of the
                    laboratory analyses were not validated or provided to the on-scene
                    coordinator. This was because the on-scene coordinator was not
                    monitoring compliance with the QAPP. Consequently, the coordinator did
                    not have sufficient data to determine whether toxaphene-contaminated soil
                    exceeding the cleanup level was left in place.

                                           12
                                    Sanders Aviation Site, Tempe, Arizona


Objective Not     At the Dodson Brothers site, a QAPP for the removal action included an
Achieved          objective to evaluate the threat to groundwater, but the objective was not
                  done. Although the Emergency Response Office’s generic QAPP required
                  a significant QAPP deviation to be documented and explained, the
                  deviation was not explained. Further, the Region did not identify the
                  impact the change had on meeting the DQOs, as required by the generic
                  QAPP. As a result, the Region did not have sufficient documentation to
                  explain why a threat to groundwater, the basis for the removal, was not
                  evaluated.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                  1. Develop a quality management plan for removal actions that includes:

                     •   Management and staff responsibilities for quality assurance
                         functions, such as development of DQOs and monitoring
                         compliance with QAPPs.

                     •   Minimum training requirements for quality assurance.

                     •   Selection basis for environmental laboratories, including
                         requirements for laboratory audits and performance evaluation
                         samples.

                     •   A tracking system for monitoring laboratory performance.


                                       13
               •   Significant quality controls included in the Superfund Program
                   quality management plan.

           2. Require the Quality Assurance Office to monitor compliance with
              quality management plans including plans for the Emergency Response
              Office and the technical contractor.

           3. Ensure on-scene coordinator responsibilities for QAPPs include:

               •   Development of DQOs.

               •   Consideration of critical quality assurance activities and procedures,
                   including data validation, field audits, performance evaluation
                   samples, magnetic tape availability for audits, laboratory audits,
                   data reporting requirements, and criteria for assessing limitations on
                   data use.

               •   Formal approval of QAPPs.

               •   Implementation of QAPPs.

           4. Have the Emergency Response Office and Quality Assurance Office
              develop a time-sensitive, team approach for developing defensible
              QAPPs. Require the Quality Assurance Office to review and approve
              all QAPPs, including providing verbal approval at emergency response
              actions if necessary.


REGION 9   The Region agreed with the recommendations and stated it would:
COMMENTS
           •   Develop a program-specific quality management plan for the
               Emergency Response Office.

           •   Amend the on-scene coordinators’ responsibilities to include the
               development of data quality objectives and consideration of critical
               quality assurance activities.

           The Emergency Response Office will involve the Quality Assurance Office
           in “scoping” for quality assurance activities. The Quality Assurance Office
           will also have the responsibility to review and approve all QAPPs.


           In its comments to the draft report, the Region stated that although the
           audit report has valid areas for improvement:



                                 14
   ...the Region does not believe these areas invalidate the
   appropriateness of the [on-scene coordinators’] judgements under
   the circumstances present, particularly when one takes into
   account the specific role of removals in achieving significant risk
   reduction. Similarly, none of the response actions taken was
   compromised by any of the alleged deficiencies in the DQO
   process...

The Region also noted that differences between the remedial and removal
programs should be taken into account in assessing the DQO processes
followed in the two programs. The Region advised that sampling data may
be a relatively small part of the decision matrix for removal actions and
serve the purpose of filling in details, rather than defining the basic
parameters of a decision. The most quality-critical needs at removal
actions typically arise at the end of the project when cleanup confirmation
is desired and expected concentrations are lower. This data collection
point is well after the most important decisions have been made.




                     15
(This page intentionally left blank.)




                 16
                        CHAPTER 2
             Data Quality Objectives Could Improve
             Removal Planning and Data Collection


                 The Region undertook removal actions Incomplete DQO Process
                 and corresponding data collection efforts      Casmalia Resources
                 without using the seven-step DQO                   Cruz Ranch
                 process, EPA’s systematic planning               Dodson Brothers
                 process.                                         Sanders Aviation
                                                                   Tucson Airport
                 The Region did not use the complete
                 DQO process at the five removal actions
                 we audited because on-scene coordinators were not required to and they
                 were generally unfamiliar with the DQO process. Also, the Region did
                 not have a system in place to support the process.

                 As a result, the Region completed these removal actions, costing more
                 than $20 million, without documenting important decision criteria or
                 alternatives.


BACKGROUND       DQOs are precise statements describing the           Underlying
                 objective of a data collection effort. The          Principles of
                 DQO process is a systematic, scientific                DQOs
                 method to establish data quality criteria and
                 performance specifications for decision          • All collected data
                 making. The DQO process was developed by            have error.
                 EPA to:
                                                                  • Nobody can afford
                 •   Help define specific questions that an         absolute certainty.
                     environmental project is intended to
                     answer;                                      • The DQO process
                                                                    defines tolerable
                 •   Identify the decisions that will be made       error rates.
                     when using the resulting data;
                                                                  • Absent DQOs, deci-
                                                                    sions are
                 •   Define the allowable risk of decision          uninformed.
                     errors in specific and quantifiable terms;
                     and,

                 •   Optimize the design of data collection.



                                      17
               The DQO process provides two primary benefits:

                  1. Better decisions, because they are based on the scientific method
                     and decision error is reduced.

                  2. More cost effective data collection efforts, because managers
                     focus on the quantity and quality of data needed for decisions.

               EPA’s Quality Assurance and
                                                          Data Quality Objectives
               Superfund program guidance provide                Process
               detailed instructions for implementing
               the DQO process. EPA’s 1994
               Guidance for the Data Quality                State the Problem to
               Objectives Process, QA/G-4, provides              be Solved
               a seven-step process to help project
               managers collect appropriate data.          Identify the Decision to
               (See box, right.) Also, OSWER                       be Made
               publication 9355.9-01, Data Quality
               Objectives Process for Superfund,
               provides detailed guidance for               Identify Inputs to the
               developing DQOs.                                    Decision

               DQOs are an essential element of               Define the Study
               EPA’s quality system. As shown in                Boundaries
               The EPA Quality System, QA/G-0,
               DQOs are the foundation of EPA’s
               quality assurance planning for projects.
                                                          Develop a Decision Rule
               Further, the quality management plan
               for Superfund requires the DQO
               process for all projects involving
               environmental data collection.             Specify Tolerable Limits
                                                            on Decision Errors

REMOVAL        Our audit of five removal actions found
ACTIONS NEED   that the DQO process was not
                                                           Optimize the Design for
BETTER         followed. As a result, more than $20
                                                                Obtaining Data
PLANNING       million was spent on these removal
               actions without adequately
               documenting decision criteria or
               performance specifications for decision making, as shown in the
               following table:




                                   18
                                    Missing Decision Criteria
                                    At Five Removal Actions

                  Removal      Missing Decision Criteria            Effect on Removal
                   Action                                           Actions and Data

                 Casmalia      Decision rules, action            Missing performance
                               alternatives, and performance     criteria to evaluate action
                               specifications not sufficiently   completion. Some
                               documented.                       unneeded data collected.

                 Cruz          Decision criteria for             Insufficient data to support
                 Ranch         correlating data not defined.     conclusion that
                                                                 contamination removed.

                 Dodson        Decision criteria and error       Unquantified risk that a
                               rate for an alleged source of     source of groundwater
                               contamination not defined.        contamination may exist.

                 Sanders       Decision rule for DDT, a          No confirmatory samples to
                               contaminant, not defined.         show DDT risks were
                                                                 abated.

                 Tucson        Decision alternatives using       Soil unnecessarily removed.
                               risk-based cleanup criteria       Associated sampling
                               not fully explored.               unneeded.

             The cost of each removal action is identified in Appendix B.



CAUSES       DQOs were not developed because on-scene coordinators:

             •    Were not required to develop them.

             •    Did not have sufficient training or experience developing DQOs.

             Also, one coordinator thought the
                                                Why DQOs Were Not Used
             DQO process was not practical at
                                               • DQOs were not considered
             removal actions. Moreover, the
                                                   mandatory.
             Region had not developed a
                                               • Lack of DQO training and
             system to support DQO
                                                   experience.
             development.
                                               • Perception that DQOs were
                                                   not practical.
DQOs Not     On-scene coordinators did not
                                               • Process to support DQOs
Considered   believe they were required to
                                                   not in place.
Mandatory    develop DQOs. However, the
             Superfund quality management
             plan, the Region’s quality management plan, and the technical


                                   19
                     contractor’s quality assurance project plan required the DQO process for
                     all sites, as part of project planning. Further, EPA’s quality system, as
                     described in QA/G-0, uses DQOs as the foundation of its quality system
                     at the project level.

                     The DQO process should be required for removal actions to facilitate
                     sound decision making. As discussed below, an abbreviated DQO
                     process could be used for “classic” emergencies.

Training and         On-scene coordinators did not have sufficient training and experience
Experience           with DQOs.
Insufficient
                     Only two of the five on-scene coordinators whose actions we audited
                     recalled attending a specific training course on the data quality objective
                     process. Only one had used the process. We also found only one of the
                     Region’s ten on-scene coordinators attended either of the two DQO
                     courses sponsored by the Quality Assurance Office since December
                     1994.

                     The Region needs to establish minimum training requirements on DQOs
                     for project managers and quality assurance experts. On-scene
                     coordinators need to understand the DQO process before it can be
                     implemented.

DQOs Are Practical   One on-scene coordinator felt the DQO process was too lengthy for
                     time-critical removal actions. However, we found:

                     •   Over half the removal actions took over 6 months to complete, as
                         detailed in Chapter 1, affording at least a few days to develop DQOs.

                     •   A “graded approach” to DQOs could be used to tailor the process for
                         removal actions completed in less than 6 months.

                     DQO guidance recognizes a “graded approach” that bases the level of
                     application according to the intended use and the degree of confidence
                     needed in the results. While the depth and detail of DQO development
                     vary, the process would benefit all removal actions by improving
                     documentation of decisions and activities, fostering communication
                     among participants, and clarifying vague objectives.

                     The Region may also wish to consider developing “pro-forma” DQOs for
                     classic emergencies or for similar types of recurring projects, such as
                     illegal drug laboratories.




                                          20
Support Process   The Region did not have a process in
                  place to support DQO development.           Changes Needed to
Needed
                  Successful applications of DQOs have       Support DQO Process
                  involved a team approach using                    • Require DQOs
                  facilitators to guide the process.           • Set training requirements
                                                                 • Use a team approach
                                                                 • Designate facilitators
Team Approach     The Region needed to implement a
                  team approach for developing DQOs
                  that included on-scene coordinators,
                  the Quality Assurance Office, statisticians, and technical experts. We
                  found these experts usually were not consulted during removal action
                  decision-making. According to quality assurance experts, a problem will
                  have the greatest chance of being solved when a multi-disciplinary team
                  of technical experts can help to recognize all of the important facets of
                  the problem and ensure that complex issues are described accurately.

Facilitators      The Region needed to designate facilitators to guide decision makers
                  through the process. As noted in the following section, one of the
                  success factors in implementing the DQO process was the use of
                  facilitators to keep the process moving and on track.


BEST PRACTICES    The U.S. Department of Energy seems to have been particularly
                  successful implementing the DQO process. It should be noted that
                  Energy has required the use of the DQO process at its environmental
                  projects and operations.

                  The Department of Energy sponsors a DQO Internet “web” site that
                  explains the DQO process, provides case studies of lessons learned and
                  cost savings, and identifies DQO resources. The address is
                  http://etd.pnl.gov:2080/DQO/.

                  Our audit of Laboratory Data Quality at Federal Facility Superfund
                  Sites, issued in March 1997, found that the Hanford Nuclear Reservation
                  had developed an effective DQO implementation procedure. This
                  procedure, shown at Appendix F, involves key decision makers in the
                  development of objectives. The Region should consider implementing
                  many aspects of this procedure.

                  A key part of Hanford’s DQO process was the use of a facilitator. The
                  facilitator can assist by fostering communication among planning team
                  members and adding objectivity to the decision making process. The
                  facilitator should have a broad range of technical and regulatory expertise
                  and experience in making focused decisions.




                                      21
RECOMMENDATIONS   We recommend that the Regional Administrator:

                  1. Require on-scene coordinators to develop DQOs for all removal
                     actions.

                  2. Establish a minimum mandatory training requirement for DQOs for
                     all regional personnel whose duties involve the collection, evaluation,
                     or use of environmental data.

                  3. Require on-scene coordinators to attend DQO training.

                  4. Use a graded or pro-forma approach to develop DQOs depending
                     upon the scope and complexity of the project.

                  5. Use a team approach to develop DQOs. The team should include
                     QA specialists, samplers, chemists, project managers, risk assessors,
                     toxicologists, data users and statisticians.

                  6. Designate a DQO facilitator to assist and coordinate team members
                     through the DQO process.


REGION 9          The Region agreed with the recommendations and stated it would:
COMMENTS
                  •   Require on-scene coordinators to develop DQOs for all removal
                      actions;

                  •   Establish a minimum DQO training requirement;

                  •   Require on-scene coordinators to attend DQO training;

                  •   Develop site-specific data quality objectives and use generic DQOs in
                      emergency situations;

                  •   Use a team approach to develop DQOs involving on-scene
                      coordinators and the Quality Assurance Office; and,

                  •   Use a trained facilitator to assist in DQO development.

                  Most of these requirements will be included in the Emergency Response
                  Office’s quality management plan, scheduled to be developed by
                  December 31, 1998. All on-scene coordinators will be trained in DQOs
                  by March 31, 1999.




                                      22
As noted in the Region’s comments to Chapter 1, the Region believed
none of the response actions were compromised by any deficiencies in the
DQO process. It also stated that differences between the remedial and
removal programs should be taken into account in assessing the DQO
processes followed in the two programs.




                    23
(This page intentionally left blank.)




                 24
                       CHAPTER 3
                          Background


                    This section provides information on EPA’s Emergency Response
                    Program, along with the audit objective, significance of the audit area,
                    scope, and methodology. It also discusses prior audit coverage.


EMERGENCY           EPA’s Emergency Response Program responds to threats posed by
RESPONSE            the sudden or unexpected releases of hazardous substances. This
PROGRAM             program is carried out by its ten regional offices in close cooperation
                    with a network of federal, state, and local government agencies.

                    Region 9's Emergency
                    Response Office manages
                    the majority of EPA’s
                    responses, called removal
                    actions, throughout
                    California, Nevada, Arizona,
                    Hawaii, and the Pacific
                    Islands. In fiscal 1997, the
                    Office handled a wide range
                    of actions, including cleaning
                    up vinyl chloride
                    contamination in West
                    Oakland. The Office had ten
                    on-scene coordinators and
                    used two contractors for
                    technical support and
                    cleanup services.

                    The Site Cleanup Branch
                    and the Federal Facilities Branch, also part of the Superfund Division,
                    manage some removal actions at National Priority List sites.

                    The Quality Assurance Office sets regional quality assurance policies,
                    reviews quality assurance documents, and advises program managers
                    on quality assurance matters.

What Rules Apply?   Removal actions are governed by Superfund legislation, the National
                    Contingency Plan, and EPA procedures.

                                     25
Superfund Laws         The Emergency Response Program is regulated by Superfund laws: the
                       Comprehensive Environmental Response, Compensation and Liability
                       Act (CERCLA) of 1980 and the Superfund Amendments and
                       Reauthorization Act of 1986. These laws gave EPA the ability to
                       respond to uncontrolled releases of hazardous substances, provided for
                       liability of parties responsible for these releases, and established a trust
                       fund to provide for a cleanup when no responsible party could be
                       identified.

National Contingency   The National Oil and Hazardous Substances Pollution Contingency
Plan                   Plan, commonly called the National Contingency Plan, is the Federal
                       government’s blueprint for responding to both oil spills and hazardous
                       substance releases.

                       Once EPA learns of a possible hazardous substance release, it
                       investigates the site, evaluates the threat, and determines the best
                       course of action. First, EPA designates an on-scene coordinator to
                       evaluate the incident and determine the appropriate response agency.

                       If the on-scene coordinator determines that EPA will take the lead in
                       responding to the incident, he
                       or she will evaluate the
                       urgency of the situation to         Levels of Removal Actions
                       determine the appropriate
                       level of removal.                 ! “Classic” Emergencies. On-
                                                         site actions must start within
                       All removal actions are not       minutes or hours of the
                       equally urgent. For example,      determination that an action is
                       situations involving              needed.
                       imminent, catastrophic
                       contamination of a reservoir        ! Time-Critical Actions. Less
                       may require expeditious             than six months is available before
                       attention, while situations         on-site actions must start.
                       involving abandoned waste
                       drums may not. Based on the         ! Non-Time-Critical Actions.
                       National Contingency Plan,          More than six months is available
                       there are three categories of       before on-site actions must begin.
                       removal actions: emergencies,
                       time-critical actions, and non-
                       time critical actions. (See box.)

                       All removal actions are not intended to be large-scale, long-term
                       cleanups. The National Contingency Plan set a $2 million dollar limit
                       and 12-month time limit on removal actions, unless there are
                       extenuating circumstances.



                                         26
EPA Procedures        EPA has developed a ten-volume series of guidance documents
                      collectively called Superfund Removal Procedures. These procedures
                      include preparation of an action memorandum, which discusses the
                      removal actions taken, and procedures for ensuring underlying
                      environmental data is sound for decision-making. EPA Order 5360.1
                      holds regional managers responsible for ensuring quality systems
                      produce data of adequate quality for environmental decisions.

                      EPA has listed its generic quality assurance references on the Internet.
                      The address is http://www.epa.gov/region10/www/offices/oea/
                      qaindex.htm.


AUDIT OBJECTIVE       The objective of the audit was to determine if Region 9 had sufficient
                      procedures in place to ensure that environmental data was of known
                      and acceptable quality for Superfund removal actions.


SIGNIFICANCE OF       We performed this audit because of known risks to the quality of
ENVIRONMENTAL         environmental data. Region 9's Superfund program has experienced
DATA                  serious problems with environmental data quality that are likely to
                      continue. Risks to environmental data are significant because data is
                      the basis for EPA’s decision making and enforcement actions.

                      According to the American national standard, ANSI/ASQC E4-1994,
                      environmental data is any measurement or information that describes
                      environmental processes or conditions, or the performance of
                      environmental technology. Data is typically collected by sampling and
                      analyzing water, soil, or air for possible contaminants.

Laboratories Create   Since 1995, at least five environmental laboratories have had serious,
Serious Data          systemic problems with environmental data quality, including falsified
Problems              data. These laboratories were used by at least 16 Superfund sites in
                      Region 9. For example:

                      C   Extensive fraud was found at one environmental laboratory,
                          resulting in $5 million of lost data, resampling costs, and associated
                          expenses. The laboratory was used at nine Superfund sites in
                          Region 9.

                      C   Another environmental laboratory, used at four regional Superfund
                          sites, was suspended in 1996 for taking improper shortcuts and
                          falsifying test results. The laboratory received more than $5 million
                          in government contracts since 1990.




                                        27
Risks Are Likely to   Risks to the quality of data are likely to continue for at least two
Continue              reasons:

                      1. Intense competition in the laboratory industry; and,

                      2. Increasing popularity of small environmental laboratories.

Competition in        Intense competition in the environmental laboratory industry is surely a
Laboratory Industry   contributing factor to fraud, manipulation, and quality assurance
                      problems.

                      How does the intense competition impact the quality of environmental
                      data? Some laboratories may manipulate data to keep clients happy.
                      For example, a laboratory may report their client meets EPA
                      requirements, thereby helping their client avoid fines, compliance
                      measures, and more frequent testing.

                      Another possible motivation for manipulating data: cutting costs. A
                      failed or improperly performed test is sometimes done at the
                      laboratory’s expense.

Popularity of Small   The increasing popularity of small environmental laboratories have
Laboratories          increased the risks to environmental data. Small laboratories typically
                      lack important quality controls, such as an independent quality
                      assurance function; qualified, competent analysts; instruments that are
                      well-maintained; and standard operating procedures.


AUDIT SCOPE AND       This section describes the audit scope and methodology, along with
METHODOLOGY           prior audit coverage.

                      We performed our audit in accordance with Government Auditing
                      Standards issued by the Comptroller General. Our field work was
                      conducted from May to October 1997. The audit included
                      management procedures in effect as of March 31, 1997.

Scope                 This audit resulted from a pilot review of data quality at the Tucson
                      International Airport Superfund site, managed by the Region’s
                      Superfund Site Cleanup Branch. This regional site included a removal
                      action. We selected four additional removal actions from those
                      managed by the Emergency Response Office between October 1, 1995
                      and March 31, 1997, as shown below:




                                        28
                     Site                       Reason Selected
                  Casmalia     This action was the largest within our audit scope.
                  Resources    The Emergency Response Office lead the removal
                               action and Superfund monies paid for the action. The
                               Region’s technical contractor was responsible for
                               much of the data.
                  Cruz         The Emergency Response Office lead the removal
                  Ranch        action and Superfund monies paid for the cleanup.
                               The Region’s technical contractor was responsible for
                               data.
                  Dodson       This removal action was lead, in part, by responsible
                  Brothers     parties. These parties funded the cleanup and
                               contracted for data collection and analyses.
                  Sanders      The Emergency Response Office asked us to include
                  Aviation     this site in our audit. Much of the environmental data
                               was analyzed by the Region’s laboratory.
                  Tucson       The Region’s Superfund Site Cleanup Branch,
                  Airport      responsible for National Priority List sites, oversaw
                               this action. Responsible parties, under EPA order,
                               collected and analyzed data.

              We selected these actions in order to evaluate management controls
              over environmental data in a variety of funding and contracting
              situations. We believe these five sites are typical of the removal actions
              managed by the Region. Appendix B describes these sites in more
              detail.

              From October 1, 1995 to March 31, 1997, Region 9 managed 35
              removal actions, excluding those at Federal facilities.

Methodology   This section describes:

              •     Our assessment of management controls over data quality at
                    removal actions;

              •     Region 9's and EPA’s 1997 Integrity Act Reports, as they relate to
                    management controls over removal actions;

              •     Analysis techniques we used to assess the adequacy of quality
                    assurance project plans and data quality objectives;



                                 29
                          •   Evidence considered in reaching our conclusions and
                              documentation limitations; and,

                          •   Our evaluation of compliance with the laws and regulations.

Management Controls       As part of our evaluation of management controls, we performed a risk
Assessment                assessment. This risk assessment identified the potential threats to data
                          quality and the management controls to address these threats.

                          Based on this risk
                          assessment and prior audit
                                                            Management Controls Over
                          work, we identified critical
                          management controls (see                   Data Quality
                          the box, this page).             1. Oversight provided by on-scene
                                                           coordinators.
                          The management control
                          weaknesses we found are          2. National standards and EPA
                          described in this report,        guidance for data quality.
                          along with
                          recommendations for              3. Data quality objectives.
                          corrective action. These
                          weaknesses were a                4. Regional quality assurance
                          significant contributing         experts.
                          cause to data quality
                          problems at the sites we         5. Quality management plans for
                          audited.                         the Superfund Program, the
                                                           Region, and the Superfund
Federal Managers’         In assessing management          technical contractor.
Financial Integrity Act   control weaknesses, we also
                          reviewed:                        6. Quality assurance project plans
                                                           designed for the Emergency
                          •   EPA’s 1997 Integrity         Response Office and its technical
                              Act Report to the            contractor.
                              President and Congress;
                              and,                         7. Site-specific quality assurance
                                                           plans.
                          •    Region 9's Fiscal 1997
                              Integrity Act Report,        8. Training and experience
                              issued in October 1997.      received by on-scene coordinators.
                                                                                   -EPA OIG
                          In its 1997 Integrity Act
                          Report, EPA reported that it
                          corrected its material weakness with environmental data quality, first
                          reported in 1992. However, EPA’s Senior Leadership Council was
                          concerned the Agency would continue to have problems with data


                                            30
                      quality across programs. While recommending that the Administrator
                      report this weakness as corrected, it advised that:

                         “ORD [Office of Research and Development], OARM [Office
                         of Administration and Resource Management] and Office of
                         Policy, Planning and Evaluation (OPPE) will work with the
                         Office of the Chief Financial Officer (OCFO) and other EPA
                         offices and stakeholder
                         organizations to ensure        “...the SLC [EPA Senior
                         appropriate attention to,      Leadership Council] is concerned
                         and accountability for, the    that the Agency may continue to
                         quality of EPA’s               have problems in oversight and
                         environmental data.”           control of data quality across
                                                         programs.”
                      Region 9's Integrity Act Report
                      did not include a management        -Memorandum from the SLC to the
                      control weakness for data               Administrator, December 1997
                      quality at removal actions.
                      However, the Region identified a vulnerability in quality assurance
                      procedures used by its contractors in subcontracting for laboratory
                      analyses.

Analysis Techniques   In evaluating procedures over data quality, we analyzed data quality
                      objectives and quality assurance project plans.

                      To analyze their adequacy, we considered EPA and regional guidance,
                      the Superfund quality management plan, and the national standard for
                      environmental data quality. We also compared quality assurance
                      requirements for removal actions to requirements found effective at
                      other Superfund sites.

Compliance with       In performing the audit, we tested compliance with the National
Laws, Regulations,    Contingency Plan and EPA regulations and guidance, including EPA
and Guidance          Order 5360.1; QA/G-5, EPA Guidance for Quality Assurance Project
                      Plans; and EPA/540/G-90/004, Sampling QA/QC Plan and Data
                      Validation Procedures. Our audit of five removal actions found
                      instances of noncompliance, as detailed in Chapters 1 and 2.

Evidence Considered   We also reviewed quality management plans, quality assurance project
                      plans, action memoranda, other site-specific records (such as
                      enforcement orders), and training records provided to us by on-scene
                      coordinators. We considered the Quality Assurance Office’s records
                      relative to training and quality assurance plan review and approval.

                      We interviewed officials in Region 9's Superfund Division and Office of
                      Policy and Management. These interviews included office directors,

                                       31
                   on-scene coordinators, project officers, contracting officer, and quality
                   assurance chemists. We interviewed the Region’s technical contractor
                   and contractors for responsible parties.

Data Limitations   The Emergency Response Office informed us that documentation may
                   be lacking in some areas relative to environmental data quality. We
                   believe this lack of documentation may have impacted our ability to
                   accurately assess training provided to on-scene coordinators and to
                   fully evaluate the Region’s rationale for decision making at certain
                   sites. When documentation was inconclusive, we interviewed regional
                   officials and considered verbal information.


PRIOR AUDIT        Related EPA OIG audits of environmental data quality have found
COVERAGE           problems with EPA’s oversight of the quality of data used for
                   Superfund decision making. These audits include:

                   •   Region 8 Needs to Further Strengthen Its Superfund Field
                       Sampling Quality Assurance Controls Activities, March 25, 1998;

                   •   Laboratory Data Quality at Federal Facility Superfund Sites,
                       March 20, 1997;

                   •   Special Review of EPA Region 9 Data Quality Oversight at the
                       Aerojet Superfund Site, March 28, 1996; and,

                   •   Environmental Data Quality at DOD Superfund Sites in Region 9,
                       September 26, 1995.




                                     32
        APPENDIX A
Region 9 Response to Draft Report




               33
        Although the draft report has identified specific instances in which data quality or data quality documentation
could have been improved, Region 9 firmly believes that the five removal actions considered in preparation of the
report were appropriate and protective of human health.

        Region 9 believes that the conduct of this audit has also been useful in helping us to identify some ways to
improve the manner in which the Region interacts with OIG in the early planning of OIG audits. Early involvement of
Regional management can serve a useful function in avoiding the types of miscommunications that appear to have
occurred in the early development of prior drafts of the report.


         Should you require a more detailed outline of the Region’s plans for implementation of the recommendations,
please let us know.

        Should you or your staff have any concerns or comments, please contact Rich Hennecke, Regional Audit
Follow-up Coordinator at 4-1630. Thank you for your cooperation in this project.

Attachments




                                                          34
I.      COMMENTS ON REPORT RECOMMENDATIONS

        A.       Introduction

         EPA Region 9 concurs with all of the draft report’s recommendations. The recommendations appear to be
fully consistent with an improved approach to data quality management in the Emergency Response Office and
consistent with the graded approach to quality assurance.

         The graded approach to quality assurance of environmental data collection activities is encouraged by Agency
policies. This approach determines a logical amount of QA/QC activities for each type of site characterization/cleanup.
A removal action generally is a short term action associated with a sense of urgency with the primary purpose of risk
reduction while a remedial action generally is a much longer term effort to assess and address virtually all
environmental risks at a site. In addition, a removal action is often associated with a much more focused data
collection program both in terms of the number of samples as well as the number of analytes in comparison with a
remedial action. Because a removal action is usually intended to reduce immediate risk, it could be followed up by a
longer term assessment. The graded-approach would call for a streamlined QA/QC program for removal and a more
elaborate program for remedial actions.

         If one takes the graded-approach even further, a quick emergency response action should have an even more
streamlined QA/QC procedure than a non-time-critical (NTC) removal action. Even within the same category, for
example NTC removal actions, the level of QA/QC requirements would depend on the Data Quality Objectives (DQOs)
for individual sites.

         There is a lack of Agency-wide guidance on how to apply the graded approach to different types of Superfund
actions, particularly removal actions. This lack of guidance gives rise to the vagueness of how QA/QC requirements
apply to removal programs. This vagueness has also caused inconsistency in the application of QA/QC requirements
and therefore is potentially a problem larger in scope than just Region 9.

         Region 9 agrees that QA documentation is absolutely essential. The extent of QA/QC program is defined by
national guidance, the infrastructure, frame work, and program accountability. In addition, each QAPP and each
sampling and analysis plan needs to define the data quality needed and associated QA/QC activities to ensure that
adequate data quality is achieved. The needed data quality is usually based on site-specific DQOs. However, in
situations where there is insufficient time to develop site-specific DQOs, a set of generic DQOs could be used for the
purpose of risk reduction. When generic DQOs are used, rationales for using the generic rather than the site-specific
DQOs should be documented.

       Region 9 believes that the QA/QC program and QA/QC plan requirements applicable to the Emergency
Response Office (ERO) should be more streamlined and more suited for its mission.

         Region 9 believes most of the draft audit’s recommendations can be met through increased interaction and
partnership between the QAO and ERO. Interaction between the QAO and ERO should begin as early as possible in
the removal project planning phase. This interaction will add significant value for removal actions for the following
reasons:

        a) Input can be provided in a timely manner by the QA Office during scoping meetings. A QA specialist can
        work closely with a START contractor to quickly plan and document the necessary QA/QC activities before a
        removal action. In the event of an emergency response where there is no time for planning, it is important for
        the QA office to be involved from the inception. Even under an emergency or time-critical removal action, an
        experienced QA professional can provide on-the-spot input and existing standard operating procedures (SOPs)
        for field sampling and/or analytical methods before the emergency response occurs. Although the Agency
        must accept less rigorous QA/QC under emergency situations, timely input from the QAO can add substantial
        value to the quality and the defensibility of the data used in removal actions.




                                                          35
        b) The QA specialist could be available by phone during an emergency response action should any questions
        arise from the field. The QA specialist can provide guidance to the START contractor to complete any QA
        documentation and data review after the response action.

        c) The QA specialist acts as a team player from the beginning of a removal project rather than being limited
        to involvement in critiquing and reviewing an end product. The early involvement of the QA specialist can
        actually save time for the OSC by lessening his/her workload for QA/QC review and approval.

        B.       Comments on Specific Recommendations

       See attached table for a summary of Region 9 responses and timelines for corrective action to OIG
recommendations.

1-1      Develop a quality management plan for response [removal] actions that includes: (1) responsibilities for
quality assurance functions; (2) training requirements; and (3) a selection basis and tracking system for environmental
laboratories.

        EPA Region 9 Response

         EPA Region 9 agrees with this recommendation. Region 9 will develop a QMP for the Emergency Response
Office in keeping with the Regional QMP. This QMP will provide the basis for quality assurance activities for ERO
and the START contractor. The QMP will be a joint effort by the Emergency Response Office and the Quality
Assurance Office and will be approved by both offices. The QMP should also be available for removal actions
conducted by the Site Cleanup Branch.

         Sampling and analysis plans (SAPs) are sometimes prepared in place of QAPPs. A SAP can contain elements
of a sample plan and a QAPP. Thus, monitoring compliance with SAPs should also be included as part of QA
functions, including review and approval of SAPs.

         Region 9 agrees that some minimum QA/QC training requirements should be defined for OSCs. Training
requirements should also be defined for START contract personnel participating in the planning, collection and/or use
of environmental data. QA/QC training should include specialized curriculum suitable for removal actions.

         The Region-wide QMP contains requirements for laboratory audits and the use of performance evaluation (PE)
samples. It also contains a lab audit checklist. In addition, the QAO publication entitled "Best Practices for Detection
and Deterrence of Laboratory Fraud" includes recommendations for the selection criteria for environmental
laboratories, laboratory audits and the use of performance evaluation samples. The QAO is developing standard
operating procedures (SOPs) for the use of PE samples. If the ERO QMP is to address selection criteria for
environmental laboratories, including requirements for laboratory audits and performance evaluation samples, this
QMP should make reference to the Region-wide QMP and be consistent with existing Regional guidance and SOPs.
The QAO can also provide performance evaluation sample studies and conduct on-site laboratory evaluations upon
request by the ERO.

         With respect to the draft audit report's recommendation for a tracking system for monitoring laboratory
performance, there has been a directive from OERR which requires the regions to track non-CLP laboratory
performance. A direct way to address this IG recommendation and the fulfill OERR’s requirement at the same time is
to provide lab performance information into the existing OERR system. The draft report also recommended that the
ERO QMP reference the OERR directive.


1-2      Require the regional Quality Assurance Office to monitor compliance with quality management plans,
including plans for the Emergency Response Office and its technical contractor.




                                                          36
         EPA Region 9 Response

         Region 9 agrees that the QAO has responsibility for quality assurance oversight. The existing Region-wide
QMP does not explicitly define in what ways and to what extent the QAO is responsible for monitoring the compliance
with program specific quality management plans. QAO’s specific oversight roles and responsibilities in monitoring
ERO’s compliance to the QMPs could be outlined in the QMP for removal actions. In addition, the QMP will identify
what organizational commitments should be in place to ensure adequate implementation for this oversight. As noted
above, the Region agrees with the recommendation that it prepare a QMP for ERO; it would be appropriate to address
these specific points in the development of that document.

         The QAO in the past has provided support to ERO by performing QA oversight. One example is the QAO’s
review of the ERO’s QA activities as part of the 1995 Regional Quality Management System Review. The review
examined compliance with the Regional Quality Management Plan and made recommendations for improvements.
The QAO assisted the Quality Assurance Division of ORD in receiving input from several key ERO OSCs during
interviews. The resulting report incorporated prospective presentations by the OSCs.

         Another example is the assessment initiated by the QAO in 1993 to ascertain whether the ERO’s QA oversight
of removal actions was adequate. Copies of notes generated by the QAO staff were provided to the OIG upon request at
the inception of its audit.

         Most recently, three representatives of the QAO initiated an audit of the ERO’s START contractor. Started in
March, 1998, this audit meets the requirements under both the START contract as well as the Regional QMP and
addresses the need for a contract audit pointed out by the IG staff in the early stage of this audit. Additional contractor
time commitment by the ERO is necessary before the QAO can complete the audit. The QAO will make
recommendations to the ERO concerning the adherence by the contractor to the contract required quality management
and project plans.

1-3     Amend the on-scene coordinators’ responsibilities for QAPPs to include the development of DQOs and
consideration of critical quality assurance activities. Also, ensuring responsibilities include QAPP approval,
implementation, and monitoring.

         EPA Region 9 Response

        Region 9 agrees with the recommendation to amend the OSCs’ QA responsibilities as outlined. These
responsibilities will be included in the ERO QMP.

         Although Region 9 agrees with the recommendation to amend the OSC’s QA responsibilities, Region 9 also
believes that the QAO can provide considerable assistance in helping the OSCs meet those responsibilities. In those
instances in which the OSCs are not fully equipped to conduct these QA technical tasks (e.g., data validation, field
audits, performance evaluation samples, magnetic tape audits, laboratory audits, etc.), the QAO, which routinely
executes these functions, could provide significant support to the ERO.

         In addition to participating in scoping sessions and meeting with ERO during the development of QAPPs and
DQOs, and reviewing and approving QAPPs, the QAO can assist ERO with difficulties encountered in the
implementation of QAPPs by providing any necessary clarifications or needed support. PE samples have proven useful
and although ERO has the lead for PE sample submission, QAO has the capacity to purchase and submit double blind
samples. Similarly, QAO has the capacity to conduct magnetic tape audits, on-site laboratory evaluations, evaluation of
data validation oversight, field audits, and data validation upon request.

1-4      Have the Emergency Response Office and Quality Assurance Office develop a time-sensitive, team approach
for developing defensible QAPPs.

         EPA Region 9 Response

         Region 9 agrees with this recommendation.


                                                            37
         QAO has designated a contact person for ERO and ERO has designated a lead contact for QAO. ERO will
involve the QAO contact in scoping for QA activities. The QAO and ERO will work to develop an agreement in the
QMP on how the two offices should interact when performing QA oversight.

         Region 9 agrees that a “time-sensitive, team approach for developing defensible QAPPs” can be used that
meets the needs of the Emergency Response Office. Although the Agency may need to accept less rigorous QA/QC
under emergency situations, timely input from the QAO can add substantial value to the quality and the defensibility of
the data used in removal actions. Substantive input can be provided in a timely manner by the QA Office during
scoping meetings. A QA specialist can work closely with a START contractor to quickly plan and document the
necessary QA/QC activities before a removal action. The QMP developed by ERO and QAO shall include procedures
for timely QAO support for those emergency responses where there is no time for planning. Even under an emergency
or a time-critical removal action, an experienced QA professional can provide on-the-spot input and existing standard
operating procedures (SOPs) for field sampling and/or analytical methods.

1-4     Require the Quality Assurance Office to review and approve all QAPPs, including providing verbal approval
at emergency action sites, if necessary.

        EPA Region 9 Response

         The Emergency Response Office will work with the QAO to develop a quality management plan (QMP). The
QMP will address the roles and responsibilities of the two offices in reviewing and approving quality assurance and
sampling plans prepared by the removal contractor for emergency, time-critical, and non-time critical actions. Under
the QMP, the QAO will have the responsibility to review and approve all QAPPs. In order to accommodate the tight
time frames under which the ERO frequently operates, the QAO will work with the ERO to develop and approve
generic QAPPs for commonly recurring situations.

2-1     Require on-scene coordinators to develop DQOs for all response actions.

        EPA Region 9 Response

         Region 9 agrees with this recommendation. The QMP will state the OSC’s responsibility to develop DQOs for
all response actions.

2-2      Establish a minimum, mandatory training requirement for DQOs for regional personnel, whose duties involve
the collection, evaluation, or use of environmental data.

        EPA Region 9 Response

         Region 9 agrees with this recommendation. The QAO, in consultation with Superfund management, will set
minimum, mandatory training requirements for OSCs and other Regional staff whose duties involve the collection,
evaluation or use of environmental data. The QAO will set these requirements by the end of the first quarter of FY99.

2-3     Require OSCs to take DQO training.

        EPA Region 9 Response

          Region 9 agrees with this recommendation and will seek to implement it at an early opportunity. ERO will
request that the next annual On-Scene Coordinator Readiness Training Program (RTP) sponsored by the EPA
Technology Innovation Office include this type of training. In the event such training is not available at the next
annual On-Scene Coordinator Readiness Training Program sponsored by the EPA Technology Innovation Office,
Region 9 will make alternative arrangements to assure that this training is provided. The QAO will conduct
workshops for OSCs to assure that all OSCs receive training in development of DQOs. These workshops will assure
that all OSCs receive early DQO training, in the event that DQO training is not available at the RTP or to
accommodate OSCs who do not attend the next annual RTP. At least half of the OSCs will have received DQO


                                                          38
training by the end of the first quarter of FY99, with all OSCs having received DQO training by the end of the second
quarter of FY99.

          The ERO QMP will outline the OSC’s DQO training requirement. The time critical nature of an OSC's tasks
requires a special kind of DQO training different from the routine Superfund training. In general, an OSC performs
minimal exploratory sampling, but rather judgmental sampling to confirm a known occurrence. Thus, DQO training
should be tailored to provide OSCs with the skills to quickly focus on a set of data quality indicators (DQIs) from
his/her focused removal goals. An OSC should also be trained to effectively adapt pre-developed/standard sets of DQIs
and field SOPs suitable for certain types of emergency or time critical actions. An OSC should also receive DQO
training relating to the use of rapid field sampling and analytical tools as these tools lend themselves well to removal
applications.

2-4      Use a graded or pro-forma approach to develop DQOs depending upon the scope and complexity of the
project.

         EPA Region 9 Response

         Region 9 agrees with this recommendation and intends to address it in the QMP.

         Region 9 believes that each QAPP and each sampling/analysis plan needs to define the data quality needed
and associated QA/QC activities to ensure that adequate data quality is achieved. The needed data quality is usually
based on site-specific DQOs. However, in emergency situations, it is conceivable that a set of generic DQOs can be
used for the purpose of risk reduction. When generic DQOs are used, a rationale for using the generic rather than the
site-specific DQOs should be documented.

          Furthermore, because of the nature of time-critical response actions, there may be insufficient time to develop
site-specific DQOs. Region 9's QAO has the necessary expertise and will assist in the development of generic DQOs,
FSPs, and lab and field SOPs. For non-time critical response actions, Region 9 recommends development of
standardized DQOs, QAPPs. FSPs and SOPs. Once contacted, the QAO will help develop, review, and adopt such
plans at scoping meetings.

2-5      Adopt a team approach to developing DQOs using facilitators, on-scene coordinators, quality assurance
experts, statisticians, and technical experts.

         EPA Region 9 Response

        Region 9 agrees that a team approach is appropriate to developing DQOs. A team approach involving OSCs
and QAO is particularly appropriate. A QAO representative would always be part of the assembled team which
develops DQOs. The team approach to DQOs will be outlined in the ERO QMP.

2-6      Designate a DQO facilitator to assist and coordinate team members through the DQO process.

         EPA Region 9 Response

       Region 9 agrees that the use of a facilitator could help to ensure that all perspectives and input from the team
members are considered and will identify a trained facilitator to assist in DQO development.

II.      COMMENTS ON DRAFT REPORT DISCUSSION

         This section contains comments on the development and use of data at removal sites. The Region believes it is
important to appreciate the distinctive role of removal actions in significant risk reduction, rather than final cleanup
which is the goal of the remedial program.

         Although the Draft Report’s comments are valid in identifying areas for improvement, the Region does not
believe that they invalidate the appropriateness of the OSC’s judgements under the circumstances present, particularly


                                                           39
when one takes into account the specific role of removals in achieving significant risk reduction. Similarly, none of the
response actions taken was compromised by any of the alleged deficiencies in the DQO process.

           The Region believes that it is important that differences between the remedial and removal programs should be
taken into account in assessing the DQO processes followed in the two programs. DQO guidance outlines a strategic
planning approach to preparation for data collection activities. It recognizes that the specific approach to be followed
depends in large measure on a number of parameters and that no single level of documentation or certainty is required
for all situations. It is a flexible tool that can be adapted to specific problems and situations. To cite only a few
examples that may be appropriate for time critical removals, the Final Guidance recognizes that:

         C        “[T]he depth and detail of DQO development will depend on the complexity of the study.” Final
                  Guidance at p. 5.

         C        “[T]he DQO Process is a flexible planning tool that can be used more or less intensively as the
                  situation requires.” Final Guidance at p. 5.

         C        “[N]ot every problem can be evaluated using probabilistic techniques.” Final Guidance at p. 7.

         C        The available budget needs to be taken into account. “If no design will meet the limits on decision
                  errors within the budget or other constraints, then the planning team will need to relax one or more
                  constraints.” Final Guidance at p. 39.

         C        “Every step of this guidance may not be applicable to data collection activities where specific
                  decisions cannot be identified, such as studies that are exploratory in nature.” Final Guidance at p.4.

          The draft report states that " ...data is the basis for EPA's decision making..." In fact, particularly so for the
removal program, sampling data may be a relatively minor part of the decision matrix, and serve the purpose of filling
in details, rather than defining the basic parameters of a decision. In a given site specific situation, historical
information, visual observation and professional judgment may be much more important to decision making than the
acquisition and evaluation of sampling data. Many EPA decisions are made in a complex decision matrix, of which
sampling data are only one part.

         Removal assessments are typically non-comprehensive, and are conducted with the intent of finding the points
of most concern to determine whether the action threshold should be crossed; subsequent assessment work is then
conducted as needed to fill in the details of the response. A typical drum site assessment may involve sampling only a
few drums that are flagged based on observation and judgment. If an action is subsequently taken, it is likely that the
remaining majority of the drums will receive only categorization for purposes of bulking and transport.

        The most quality-critical data needs at removal actions typically arise at the end of the project, when cleanup
confirmation is desired and expected concentrations are lower, well after the most important ERO decisions have been
made. Even this may be a non-factor when we are not pursuing a complete cleanup, but instead are focussing on high
hazard/high concentration substances, with the intent of leaving residual contamination to be dealt with by another
agency or program.




                                                             40
    Region 9 Removal Program/ QA Office OIG Audit Recommendation
                        Implementation Schedule

Recommendation                 Region Response   Corrective Action/
                                                 Target Date
1-1 Develop a QMP              Agree             ERO and QAO will develop
                                                 ERO QMP by end of first
                                                 quarter FY99.
1-2 Require QAO to monitor     Agree             ERO QMP to outline QAO
     compliance with QMP                         oversight of Compliance by
                                                 end of first quarter FY99.
1-3 Specify OSC QAPP           Agree             ERO QMP will specify OSC
    responsibilities                             QAPP responsibilities by end
                                                 of first quarter FY99.
1-4 ERO and QAO develop a      Agree             ERO QMP will outline team
    Team approach for                            approach by end of first
    QAPPs                                        quarter FY99; QAO to
                                                 review and approve all
                                                 QAPPs (including generic
                                                 QAPPs to help meet ERO
                                                 needs).
2-1 Require OSCs to develop    Agree             ERO QMP will outline
    DQOs                                         graded approach to DQO
                                                 development by end of first
                                                 quarter FY99.
2-2 Set minimum DQO            Agree             ERO QMP will outline OSC’s
    training requirement for                     DQO training requirements
     all regional personnel                      by end of first quarter FY 99;
                                                 QAO will set requirements
                                                 for other programs by end of
                                                 first quarter FY99.
2-3 Require OSCs to attend     Agree             DQO training for OSCs will
  training                                       be provided by QAO by the
                                                 end of first quarter FY99.
                                                 OSCs will be required to
                                                 attend. Over half of OSCs to
                                                 be trained by end of first
                                                 quarter and all OSCs to be
                                                 trained by end of second
                                                 quarter FY99.



                                           41
2-4 Use graded approach for   Agree        Graded approach to DQOs
   DQOs.                                   will be outlined in ERO
                                           QMP; including time critical
                                           as well as non-time critical
                                           removals.
2-5 Use team approach for     Agree        Team approach to DQOs will
    DQOs                                   be outlined in ERO QMP by
                                           end of first quarter FY99.
2-6 Use DQO facilitator       Agree        A DQO facilitator will be
                                           designated for ERO DQO
                                           development by end of first
                                           quarter FY99.




                                      42
                            APPENDIX B
                        Removal Actions Audited



Casmalia Resources          Casmalia Resources was a hazardous waste treatment,
Santa Barbara               storage, and disposal facility which began operations in
                            1973. Until operations ceased in 1989, the site accepted all
County, CA
                            types of commercial and industrial wastes including
                            pesticides, solvents, polychlorinated biphenyls (PCBs),
                            metals, acids, caustics, cyanide, and oil field wastes.

                            EPA inspected the site in March and July 1992 and
                            observed the exposure of landfill wastes and seepage of
                            liquids from a perimeter source control trench. This trench
                            was designed to collect contaminated groundwater from the
                            landfills.

Response Action Taken       The removal action, taken between August 1992 and
                            October 1996, included:

                            C      Controlling landfill erosion by installing drainage
                                   channels and by grading and seeding of landfill
                                   slopes;

                            C      Installing and operating a treatment system for
                                   contaminated groundwater pumped from the control
                                   trench; and,

                            C      Disposing of concentrated contaminants pumped
                                   from the pesticides and solvents landfill off the site.

                            In September 1996, a settlement was reached with some of
                            the responsible parties and they assumed some site
                            stabilization work.

Responsible Parties         Region 9's Emergency Response Office was responsible for
                            initiating the removal action including evaluating site
                            conditions, developing a site stabilization plan, and
                            implementing the plan.

                            EPA technical contractors assisted the on-scene
                            coordinators in the performance of the removal action. An
                            EPA cleanup services contractor was responsible for

                                        43
                         carrying out the removal actions including installing and
                         operating the on-site treatment system.

                         Sampling was performed by contractors. The technical
                         contractors were responsible for compiling sample results
                         and performing data validation.

Cost of Removal Action   EPA estimated the responsible parties would spend about
                         $30 million to stabilize the site under current agreements.
                         Through January 1998, EPA had collected about $2.3
                         million from responsible parties for cleanup costs. EPA’s
                         cost for the action was about $17 million.


                         Cruz Ranch was the location of an unpermitted
Cruz Ranch
                         electroplating operation. An EPA inspection found various
Auburn, CA               hazardous chemicals stored on the site and an area of soil
                         with elevated levels of chromium.

                         Inhaled chromium is a suspected human carcinogen.
                         Chronic exposure to chromium may produce adverse effects
                         on the liver, kidney, gastrointestinal and immune systems.

Removal Action Taken     The removal action, conducted in November 1996,
                         consisted of:

                         C      Excavation and disposal of 85 cubic yards of
                                chromium-contaminated soil;

                         C      Removal of drums and containers containing metal
                                solutions and corrosive acids and bases; and,

                         C      Sampling of a water well and septic tank on the
                                property for metals, volatile organic compounds and
                                amenable cyanide.

Responsible Parties      Region 9's Emergency Response Office was responsible for
                         conducting the site assessment, developing proposed
                         actions, and completing the removal action.

                         EPA’s technical contractor assisted the on-scene
                         coordinator during the site assessment and removal action
                         by developing the sampling plan, collecting samples,
                         performing data validation and preparing final reports.




                                     44
                         EPA’s cleanup services contractor was responsible for the
                         removal of chemical containers, and excavation, removal
                         and backfill of contaminated soil.

Cost of Removal Action   According the modified action memorandum, the estimated
                         EPA cost of completing the removal action was $100,000.


                         The Dodson Brothers Oil Company site is located in
Dodson Brothers Oil
                         Montclair, San Bernardino County, California. From 1975
Company                  to 1982, the company recycled oil without a permit,
Montclair, CA            accepting spent solvents and other industrial wastes. These
                         wastes were then illegally treated, stored, and disposed of
                         on the site.

                         Although not listed on the Superfund National Priorities
                         List (NPL), the site was determined to be of NPL-caliber
                         based on preliminary hazard ranking system analysis.
                         Perchloroethylene (PCE), trichloroethylene (TCE), and
                         trichloroethane (TCA) were among some of the
                         contaminants found in elevated concentrations in the soil at
                         the site. These carcinogens are listed as hazardous
                         substances under the Resource Conservation and Recovery
                         Act (RCRA).

Removal Action Taken     EPA’s Emergency Response Office first performed an
                         assessment and then oversaw the removal of an
                         underground tank and contaminated soil. The Emergency
                         Response Office worked on this project from May 1994 to
                         February 1997.

                         In August 1994, EPA’s technical contractor conducted an
                         assessment to identify the contents of an underground
                         storage tank and the extent of soil contamination.

                         From September 1995 to July 1996, the responsible parties
                         took the removal action. This action removed and disposed
                         of an underground tank and its contents, and excavated and
                         disposed of contaminated soil. Also, the excavations were
                         backfilled.

Responsible Parties      The pre-removal assessment was funded by the EPA, but
                         the removal action was funded by responsible parties both
                         voluntarily and under an EPA administrative order.




                                     45
Cost of Removal Action   EPA’s cost for the removal action was about $250,000.
                         Region 9 did not track the funds spent by responsible parties
                         cleaning up the site.


                         The Sanders Aviation site is located in Tempe, Arizona.
Sanders Aviation
                         The Sanders Aviation Company was an aerial applicator of
Tempe, AZ                pesticides from 1951 to 1984. A number of pesticides were
                         stored, mixed, and disposed of on-site, including toxaphene
                         and DDT. Both of these pesticides are known animal and
                         probable human carcinogens, and are listed as hazardous
                         substances under the Resource Conservation and Recovery
                         Act (RCRA). DDD and DDE, derivatives of DDT, were
                         also detected on the site.

Removal Action Taken     In 1994, the State of Arizona requested that EPA clean up
                         the Sanders Aviation site because of pesticide
                         contamination. EPA’s Emergency Response Office worked
                         on this site from October 1994 through January 1997. The
                         removal action included tests of various treatment
                         technologies, pre-removal site assessments, and a removal
                         action involving excavation and treatment of about 25,000
                         tons of contaminated soil. The treated soil was
                         subsequently used as backfill.

Responsible Parties      EPA determined that the potential responsible party lacked
                         adequate financial resources for the cleanup. The removal
                         action was funded by the EPA at a cost of about $2.8
                         million.


                         In 1982, EPA added the Tucson International Airport
Tucson International
                         Superfund site to the Superfund National Priorities List.
Airport                  The site has been the subject of extensive EPA
Tucson, AZ               investigations since then.

                         As a part of a remedial investigation, polychlorinated
                         biphenyl (PCB) contamination was found in a residential
                         area adjacent to the site. PCBs are very stable chemicals
                         with a heavy oil-like consistency used for insulation in
                         transformers, capacitors, switches, and voltage regulators.

                         People exposed to PCBs in the air for a long time have
                         experienced irritation of the nose and lungs, and skin
                         irritations, such as acne and rashes. Some studies have
                         shown that babies born to women who consumed PCB-


                                     46
                         contaminated fish had problems with their nervous systems
                         at birth.

Removal Action Taken     In October 1996, EPA issued an unilateral administrative
                         order to five responsible parties for a time-critical removal
                         action of PCB-contaminated soil. EPA ordered the parties
                         to remove the PCB-contaminated soil in the residential
                         property and in an nearby drainage system on the airport
                         property. EPA used a removal action, instead of an NPL
                         remedial action, to hasten the cleanup.

                         About 10,000 tons of PCB-contaminated soil was excavated
                         and was transported to landfills in Arizona and California.
                         The excavation took place from March to May 1997.

Responsible Parties      Since the site was on Superfund’s National Priorities List,
                         the cleanup was being managed by Region 9's Superfund
                         Cleanup Branch. Its Emergency Response Office was not
                         involved in this action.

                         The responsible parties hired a technical contractor to
                         oversee the removal of contaminated soil. The technical
                         contractor collected the confirmation samples during the
                         removal action and submitted the samples to a subcontract
                         laboratory for analysis.

Cost of Removal Action   The responsible parties paid about $685,000 for the removal
                         action; EPA oversight costs were about $27,000.




                                     47
(This page intentionally left blank.)




                 48
                     APPENDIX C
                       Abbreviations



Abbreviation   Name
ARARs          Applicable or relevant and appropriate cleanup
               requirements
CERCLA         Comprehensive Environmental Response,
               Compensation, and Liability Act
DDD            Dichlorodiphenyldichloroethane
DDE            Dichlorodiphenyldichloroethylene
DDT            Dichlorodiphenyltrichloroethane
DQO            Data quality objectives
NCP            National Contingency Plan
PCB            Polychlorinated biphenyl
PE             Performance evaluation (samples)
QA             Quality assurance
QAPP           Quality assurance project plan
QC             Quality control
RCRA           Resource Conservation and Recovery Act
SARA           Superfund Amendments and Reauthorization Act




                                 49
(This page intentionally left blank.)




                 50
                                 APPENDIX D
                   Laws, Regulations, Directives, and Guidance




           Title                                    Description

CERCLA                       Comprehensive Environmental Response, Compensation and
                             Liability Act of 1980
SARA                         Superfund Amendments and Reauthorization Act of 1986
ANSI/ASQC E4-1994            American National Standard, Specifications and Guidelines
                             for Quality Systems for Environmental Data Collection and
                             Environmental Technology Programs (prepared by the
                             American Society for Quality Control)
40 CFR Chapter 1, §300       National Oil and Hazardous Substances Pollution
                             Contingency Plan
EPA Order 5360               EPA Quality Manual for Environmental Programs
EPA Order 5360.1             Policy and Program Requirements to Implement the
                             Mandatory Quality Assurance Program
EPA QA/G-0                   The EPA Quality System
EPA QA/G-4                   Guidance for Planning for Data Collection in Support of
                             Environmental Decision Making Using the Data Quality
                             Objectives Process
EPA QA/G-5                   Guidance on Quality Assurance Project Plans
EPA QA/R-5                   EPA Requirements for Quality Assurance Project Plans for
                             Environmental Data Operations




                                           51
                     OSWER Directives and Publications


OSWER Directive or                                 Title
Guidance

9360.4-01            Superfund Removal Procedures: Quality Assurance/Quality
                     Control Guidance for Removal Activities
9360.3-02            Superfund Removal Procedures: Guidance on the Consideration
                     of ARARs During Removal Actions
9355.9-01            Data Quality Objectives Process for Superfund, Interim Final
                     Guidance




                                         52
                                 APPENDIX E
                  Definitions of Quality Assurance Activities



Data Validation         Data validation is a method for ensuring laboratory data is of
                        known quality. It involves reviewing data against a set of criteria to
                        provide assurance that data is adequate for its intended use.

                        EPA has data validation guidelines, known as national functional
                        guidelines, for its own contract lab program. According to EPA
                        guidelines, data validation includes a review of documentation such
                        as raw data, instrument printouts, chain of custody records, and
                        instrument calibration logs.


Field Audits            Field audits evaluate compliance with procedures for sample
                        identification, sample control, chain-of-custody, field
                        documentation, and sampling operations.


Laboratory Audits       Laboratory audits are on-site audits designed to identify technical
                        areas which may cause laboratories to improperly identify or
                        quantitate chemicals. Audits normally evaluate a laboratory’s
                        technical expertise, standard operating procedures, facility and
                        equipment sufficiency, and possible sources of sample
                        contamination.

                        On-site audits provide additional insight into a laboratory’s facility,
                        equipment, personnel, and operating procedures. It is often
                        beneficial to perform an on-site audit when the laboratory is being
                        considered for work for which it does not have performance history
                        with the customer.


Magnetic Tape           Audits of magnetic media are used to detect manual changes in the
Audits                  electronic copy of the raw data and inconsistencies between the
                        electronic copy and paper copy. These audits are done in
                        conjunction with data audits to reconstruct an analytical run.

                        Electronic data, often in the form of magnetic tapes, is an output of
                        laboratory analyses. By obtaining magnetic tapes (or other

                                            53
                electronic data) from a laboratory, audits can be conducted to help
                determine:

                       ! If the laboratory is complying with its contract;

                       ! The integrity of the laboratory’s computer systems; and,

                       ! The appropriateness of any software editing.

                Electronic tape audits are usually limited to gas chromatography
                and mass spectrometry (GC/MS) data generated by certain
                electronic systems. Tape audits are not currently available for
                inorganic data or radio nuclides.


Performance     Performance evaluation (PE) samples are prepared by “spiking” a
Evaluation      known concentration of chemicals into a contaminate-free media,
Samples         such as water or soil. PE samples can be administered by two
                methods: “blind” or “double-blind.” When a PE sample is blind,
                the laboratory is aware the sample is a PE, but does not know the
                chemical concentration levels.

                When a sample is double-blind, the PE sample is submitted as part
                of a field sample shipment, so that the laboratory is not only
                unaware of the concentration levels, it is also unaware that the
                sample is a PE. A laboratory’s analysis of PE samples is used to
                evaluate its ability to produce accurate results.


Split Samples   Split samples are samples collected in the field which are divided
                into two samples. One sample is sent to the contract laboratory and
                the other one is sent to an independent laboratory. The results from
                the two laboratories are then compared and the differences are
                analyzed. Split samples can be used to verify the use of proper
                analytical methodology and to detect unusual data trends.




                                   54
                  APPENDIX F
Hanford’s “Best Practice” for Data Quality Objectives




                         55
This chart was prepared by Hanford Nuclear Reservation’s environmental restoration contractor
(ERC), Bechtel Hanford, Inc.


Data Quality Objectives Web Site

The Department of Energy has a web site with DQO case studies of lessons learned and cost savings,
along with DQO resources. Its address is
http://etd.pnl.gov:2080/DQO/case_studies.html.




                                                56
                                   APPENDIX G
                                 Report Distribution



Distribution          Individual or Activity
Office of Inspector   ! Acting Inspector General (2410)
General
EPA Headquarters      ! Assistant Administrator for Research and Development (8101)
                      ! Assistant Administrator for Solid Waste and Emergency Response
                      (5101)
                      ! Comptroller (2731)
                      ! Associate Administrator for Regional Operations and State/Local
                      Relations (1501)
                      ! Associate Administrator for Congressional and Legislative Affairs
                      (1301)
                      ! Associate Administrator for Communication, Education, and Public
                      Affairs (1701)
                      ! Director, National Center for Environmental Research and Quality
                      Assurance (8201)
                      ! Agency Followup Official (2710)
                      ! Agency Followup Coordinator (2724)
Region 9              ! Regional Administrator
                      ! Director, Superfund Division (SFD-1)
                      ! Assistant Regional Administrator, Policy and Management (PMD-1)
                      ! Chief, Emergency Response Office (SFD-6)
                      ! Regional Quality Assurance Officer (PMD-3)
                      ! Office of Communication and Government Relations (CGR-1)
                      ! Audit Followup Coordinator ( PMD-4)




                                            57
(This page intentionally left blank.)




                 58
